                                                                             Report No. DODIG-2014-047




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              MARCH 25, 2014




                     Independent Auditor’s Report on
                     the Attestation of the Existence,
                     Completeness, Rights and
                     Obligations, and Presentation and
                     Disclosure of the Department of the
                     Navy’s Ordnance




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                 March 25, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
			              CHIEF FINANCIAL OFFICER, DOD
		             NAVAL INSPECTOR GENERAL

SUBJECT: Independent Auditor’s Report on the Attestation of the Existence, Completeness,
	        Rights and Obligations, and Presentation and Disclosure of the Department of the
	        Navy’s Ordnance (Report No. DODIG-2014-047)

We are providing this report for information and use. No written response to this report was
required. Therefore, we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945.



	                                             Lorin T. Venable, CPA
	                                             Assistant Inspector General
	                                             Financial Management and Reporting




                                                                                            DODIG-2014-047 │ i
                                              INSPECTOR GENERAL
                                            DEPARTMENT OF DEFENSE
                                            4800 MARK CENTER DRIVE
                                         ALEXANDRIA, VIRGINIA 22350-1500


                                                                                                             March 25, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
			              CHIEF FINANCIAL OFFICER, DOD
		             ASSISTANT SECRETARY OF THE NAVY (FINANCIAL 				
 	     		        MANAGEMENT AND COMPTROLLER)	

SUBJECT: Independent Auditor’s Report on the Attestation of the Existence, Completeness,
	        Rights and Obligations, and Presentation and Disclosure of the Department of the
	        Navy’s Ordnance (Report No. DODIG-2014-047)



Audit Opinion
We have examined management’s assertion of audit readiness1 for the existence, completeness,
rights and obligations, and presentation and disclosure of the Department of the Navy’s (DON’s)2
ordnance as of June 30, 2013. The DON limited its assertion by excluding ordnance in the
physical custody of the Army on February 28, 2013, and we excluded ordnance outside the
contiguous United States and on ships and submarines.3 DON management is responsible
for its assertion of audit readiness. Our responsibility is to express an opinion on the assertion
based on our examination.

We conducted our examination in accordance with attestation standards established by
the American Institute of Certified Public Accountants and generally accepted government
auditing standards as stated in the Government Accountability Office’s “Government Auditing
Standards,” December 2011. Those standards require examining, on a test basis, evidence
supporting the DON’s assertion of audit readiness of the existence, completeness, rights and
obligations, and presentation and disclosure of its mission-critical assets and performing other
procedures we considered necessary. We believe that our examination provides a reasonable
basis for our opinion on management’s assertion.

We performed our examination using information obtained from Naval Supply Systems
Command–Global Logistics Support Ammunitions (NAVSUP GLS AMMO), Marine Corps Systems
Command, and DON activities4 for the existence, completeness, rights and obligations, and
presentation and disclosure of the DON ordnance as of June  30,  2013. The DON Ordnance
Information System (OIS) is the accountable property system of record for ordnance assets.
As of June 30, 2013, the DON ordnance universe in OIS consisted of to 308,692,308 assets.
We tested a nonstatistical sample of 24,159,045 assets for existence, 1,791,505 assets for

	1	
    Audit readiness per the March 2013 DoD Financial Improvement and Audit Readiness Guidance Wave 3-Mission Critical Asset
    Existence and Completeness Audit.
	2	
    The Department of the Navy includes both Navy and U.S. Marine Corps activities.
	3	
    We excluded ordnance categorized as outside the contiguous United States and “AFLOAT” in the DON’s Ordnance Information System.
	4	
    DON activities included activities other than NAVSUP GLS AMMO, such as, Navy Munitions Command, Continental United States East
    Division, Yorktown, Virginia; Marine Aviation Logistics Squadron 16, San Diego, California; and Mine Warfare Training Center,
    San Diego, California.


                                                                                                                              DODIG-2014-047 │ 1
                 completeness, and 25,950,550 assets for rights.5 Examples of ordnance assets tested
                 range from Tomahawk cruise missiles, torpedoes to sonobuoys, and gun ammunition.

                 The DON included financial statement presentation and disclosure in its ordnance
                 assertion. We identified approximately $95 million of ordnance owned by the
                 U.S. Coast Guard during our review of the DON’s approximately $46 billion of ordnance
                 reported on the June  30,  2013 financial statements. NAVSUP GLS AMMO personnel
                 took corrective action and reconfigured the OIS query to remove U.S. Coast Guard
                 ordnance from the Navy financial reporting. Additionally, they identified one
                 other organization that reports ordnance in OIS that should not be reported on the
                 DON financial statements and removed it from the OIS query. NAVSUP GLS AMMO
                 personnel completed the analysis of ordnance and updated OIS queries for FY 2014
                 first quarter data.

                 Additionally, we identified a discrepancy during a reconciliation of NAVSUP GLS AMMO
                 OIS universe of transactions to the Navy third quarter financial statements. NAVSUP
                 GLS AMMO stated the discrepancy occurred because the “On Hand Quantity” was used
                 instead of the “Last Reported On Hand Quantity.” As a result, Navy Office of Financial
                 Operations overstated the third quarter financial statements by 1,089,225 assets.
                 NAVSUP GLS AMMO could not determine the dollar amount associated with the
                 overstated assets because the “tech data file,” which included the unit prices, was
                 not saved. NAVSUP GLS AMMO personnel took corrective action by using the “Last
                 Reported On Hand Quantity” and saving the “tech data file” for FY 2014 first quarter
                 reporting purposes.

                 In our opinion, the DON assertion of audit readiness for the existence, completeness,
                 rights and obligations, and presentation and disclosure of its ordnance as of
                 June 30, 2013, is stated fairly in accordance with DoD Financial Improvement and Audit
                 Readiness Guidance Wave 3-Mission Critical Asset Existence and Completeness Audit.



                 Internal Controls
                 Internal controls are important for safeguarding assets. Management designs internal
                 controls to provide reasonable assurance that unauthorized acquisition, use, or
                 disposition of assets will be prevented or detected and corrected in a timely manner.
                 Although we can express a favorable opinion on the DON assertion, during our
                 examination, we identified erroneous inventory procedures, insufficient internal
                 controls, and a lack of supporting documentation.

                 During our examination, we observed the following matters of concern that we are
                 bringing to management’s attention for appropriate corrective action.

                               •	 Navy personnel were provided the quantity of assets on their
                                  count sheet while conducting the inventory. The Navy relies on the
                                  “Conventional Ordnance Stockpile Management Policies and Procedures,”
                                  April 2013, for inventory accountability policies and procedures. It states
                                  that the individual conducting the inventory must not be provided the
                                  quantities from master records applicable to the inventory. Navy personnel


                 	5	
                       The audit team was able to test a large quantity of assets because each piece of ordnance is tracked individually. For
                       example, an individual bullet counts as one asset.

2 │ DODIG-2014-047
           stated they were unaware of the requirement. There is a higher potential
           for inaccurate inventory records if the quantity is identified in advance.
           For example, if the OIS‑reported inventory is less than the physical count,
           personnel performing the inventory might not report the difference and
           could pilfer any unrecorded items. Navy personnel stated they will no
           longer include the quantities on the count sheet when performing inventory.

        •	 We observed a lack of internal controls in areas of segregation of duties
           and conflict of interest. For example, an individual had read/write-
           access to OIS and direct access to ordnance storage areas. This occurred
           because of limited personnel availability and therefore, duties could not be
           properly segregated. In another example, a married couple worked at the
           same location and worked together on ordnance inventory discrepancies.
           Specifically, she had read/write-access to OIS, and he had direct access to
           ordnance storage areas. This occurred because Navy personnel were not
           aware of DoD and Navy regulations requiring them to be conscious of
           actions that create the appearance of impropriety or that could be perceived
           as unethical. As a result, personnel could circumvent internal controls.
           The Navy should ensure that such duties are not only segregated by
           function, but also reviewed to avoid potential conflict‑of‑interest situations.
           The Navy should request a waiver if it is unable to properly segregate
           duties or prevent a conflict of interest to comply with Navy regulations.
           Navy personnel reassigned duties, and the married couple no longer have a
           direct line of communication for ordnance.

        •	 According to the DON “Management Reassertion for Existence, Completeness,
           Rights and Obligations, and Presentation and Disclosure of Department
           of the Navy Ordnance, Excluding Department of the Navy Ordnance in
           the Physical Custody of the Army,” February 28, 2013, key supporting
           documentation is available for rights and obligations from DD Form 250
           “Material Inspection and Receiving Reports” (DD 250). We requested
           DD 250s from DON activities and concluded the majority could not be
           obtained for several reasons: the Wide Area Work Flow system that
           maintains copies of the DD 250s has limited search capabilities, the
           Army maintains DD 250s when it procures the ordnance, and the
           Navy is not required to keep the DD 250s for more than 2 years. The DON
           should update its process memorandum to reflect the correct supporting
           documentation available for rights and obligation testing.

Improving these internal control processes will help the DON become audit ready
and sustain auditable processes for future financial statement examinations.

This report is intended solely for the information and use of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer, DoD, and the Assistant Secretary of
the Navy (Financial Management and Comptroller) and is not intended to be used and
should not be used by anyone else. However, this report is a matter of public record,
and its distribution is not limited.




	                                             Lorin T. Venable, CPA
	                                             Assistant Inspector General
	                                             Financial Management and Reporting

                                                                                         DODIG-2014-047 │ 3
                 Acronyms and Abbreviations
                                  DON The Department of the Navy
                     NAVSUP GLS AMMO Naval Supply Systems Command–Global Logistics Support Ammunitions
                                   OIS Ordnance Information System




4 │ DODIG-2014-047
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                            DoD Hotline
                           dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
